      Department of Homeland Security





              Mississippi’s Management of 

        State Homeland Security Program Grants 

      Awarded During Fiscal Years 2008 Through 2010 





OIG-13-72                                        April 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington,   DC 20528 / www.oig.dhs.gov



                                          APR 9        2013

MEMORANDUM FOR:	              David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:	                       Anne L. Richards (/~~~
                             Assistant Inspector General for Audits

SUBJECT:	                    Mississippi's Management of State Homeland Security
                             Program Grants Awarded During Fiscal Years 2008 Through
                             2010

Attached for your action is our final report, Mississippi's Management of State Homeland
Security Program Grants Awarded During Fiscal Years 2008 Through 2010. We incorporated
the formal comments from the Federal Emergency Management Agency and the State of
Mississippi in the final report.

The report contains 12 recommendations aimed at improving the State of Mississippi's
management of State Homeland Security Program grants. Your office concurred with the
12 recommendations. Based on information provided in your response to the draft report,
we closed one recommendation and consider the remaining 11 recommendations open and
resolved. Once your office has fully implemented the recommendations, please submit a
formal closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon corrective
actions and ofthe disposition of any monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit ................................................................................................................... 3 

   

          Strategic Planning .................................................................................................. 3 

          Recommendations .................................................................................................. 6 

          Management Comments and OIG Analysis ........................................................... 6 

           

          Grant Fund Allocation Process................................................................................ 7 

          Recommendation.................................................................................................... 7 

          Management Comments and OIG Analysis ............................................................ 8 

   

          Monitoring Subgrantee Activities and Use of Purchased Equipment .................... 8 

          Recommendation.................................................................................................... 9 

          Management Comments and OIG Analysis .... ………………………………………………….…9 

       

          Sole-source Procurements ..................................................................................... 9 

          Recommendations ................................................................................................ 10 

          Management Comments and OIG Analysis ......................................................... 10 

       

          Property Management Controls and Accountability ........................................... 11 

          Recommendations ................................................................................................ 13 

          Management Comments and OIG Analysis ......................................................... 14 

       

          Personnel Time Charges ....................................................................................... 15 

          Recommendations ................................................................................................ 16 

          Management Comments and OIG Analysis ......................................................... 16 


   Appendixes
    

              Appendix A:           Objectives, Scope, and Methodology ........................................... 18 

              Appendix B:           Management Comments to the Draft Report .............................. 22 

              Appendix C:           State of Mississippi Homeland Security Governance ................... 27 

              Appendix D:           Homeland Security Grant Program ............................................... 28 

              Appendix E:           Major Contributors to This Report ............................................... 29 

              Appendix F:           Report Distribution ....................................................................... 30 



www.oig.dhs.gov                                                                                                                  OIG-13-72 

                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           GPD     Grant Programs Directorate
           HSGP    Homeland Security Grant Program
           M&A     management and administration
           MOHS    Mississippi Office of Homeland Security
           OIG     Office of Inspector General
           SAA     State Administrative Agency
           SHSP    State Homeland Security Program




www.oig.dhs.gov                                              OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting requirement
   for the State of Mississippi.

   The audit objectives were to determine whether the State of Mississippi distributed and
   spent State Homeland Security Program grant funds (1) effectively and efficiently, and
   (2) in compliance with applicable Federal laws and regulations. We also addressed the
   extent to which grant funds enhanced the State’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other man-made
   disasters. The Federal Emergency Management Agency (FEMA) awarded the State of
   Mississippi approximately $19.3 million in State Homeland Security Program grants
   during fiscal years 2008 through 2010.

   In some instances, the State of Mississippi distributed and spent State Homeland
   Security Program grant funds in compliance with applicable Federal laws and
   regulations; however, improvements are needed. For example, the State developed a
   strategic plan, but it was not adequate. The State did not establish a means to measure
   progress toward preparedness as a result of receiving grant funds, or allocate funding
   based on risks identified through a statewide collaborative process. The State did not
   monitor subgrantee accountability and use of resources purchased with grant funds,
   ensure that sole-source procurements followed Federal and State requirements, or
   properly account for management and administration expenses as required by
   regulation.

   We made 12 recommendations to FEMA, which, if implemented, should strengthen
   program management, performance, and oversight. FEMA concurred with these
   recommendations.




www.oig.dhs.gov                                1                                        OIG-13-72

                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, protect against, respond
   to, and recover from terrorist attacks and major disasters. The State Homeland Security
   Program (SHSP) grant is one element of the HSGP, designed to fund a wide range of
   preparedness activities, including planning, organization, equipment purchase, training,
   exercises, and management and administration costs.

   During fiscal years (FY) 2008, 2009, and 2010, FEMA awarded the State of Mississippi
   SHSP grant funds totaling approximately $19.3 million. The State of Mississippi has
   82 counties divided into nine regions, with three task forces that provide all-hazards
   response to natural and manmade disasters across the State. The State did not receive
   Urban Area Security Initiative funds during this period.

   In 2004, the Governor of Mississippi established the Mississippi Office of Homeland
   Security (MOHS) and designated this office as the State Administrative Agency (SAA)
   responsible for administering the HSGP. The SAA is responsible for managing the grant
   program in accordance with established Federal guidelines and allocating funds to local,
   regional, and other Mississippi government entities.

   Figure 1 illustrates the level of SHSP funding Mississippi received over a 5-year period.
   SHSP funding during FYs 2008 to 2010, the periods covered by our audit, averaged $6.4
   million per year. The State received its highest level of SHSP funding in FY 2010, but
   faced a nearly $4 million decline from 2010 levels in FY 2012.

                  Figure 1. SHSP Funding Levels, FYs 2008 to 2012

                                    Mississippi SHSP Funding

                                    $6,524,500                       $5,137,205
                       $6,180,000                $6,613,200


                                                                           $2,801,316

                         2008         2009        2010        2011           2012
           fffffffSource: FEMA.

   Appendix A contains details on the audit’s objectives, scope, and methodology. 



www.oig.dhs.gov                                     2                                   OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit
   In some instances, the State distributed and spent SHSP funds in accordance with
   Federal laws and regulations. However, the State needs to improve in the following
   areas to enhance its management of SHSP grants:

       •   Strategic planning
       •   Grant fund allocation
       •   Monitoring subgrantee activities and use of purchased equipment
       •   Sole-source procurements
       •   Property management controls and accountability
       •   Personnel time charges.

   MOHS awarded contracts valued at $329,928 without competition. As a result, we
   consider these costs questioned. In addition, MOHS could not provide documentation
   supporting personnel-related reimbursements totaling $661,753. As a result, we
   consider these costs unsupported.

           Strategic Planning

           The SAA developed a State homeland security strategy, but it was not adequate.
           The State of Mississippi’s homeland security strategy for FYs 2008 through 2010
           was not current and was not compliant with Federal guidelines. The State’s
           strategy, goals, and objectives were not time-limited. Additionally, the State
           could not provide evidence that it performed a risk assessment and capability
           review as a basis for its strategy and did not have a system in place to measure
           improvement toward preparedness.

           Strategic Plan

           We obtained a FEMA-approved State strategy dated FY 2008, and FEMA officials
           told us the FY 2008 plan also served as the strategy for FYs 2009 and 2010.
           However, the strategy contained goals and objectives with target completion
           dates that had already passed, and therefore was not current.

           The DHS StatefandfUrbanfAreafHomelandfSecurityfStrategyfGuidancefonfAligningf
           StrategiesfwithfthefNationalfPreparednessfGoal, dated July 22, 2005, (the
           Guidance) addresses updating State strategies. It recognizes the value of each
           State having an ongoing process of review and refinements as new lessons are
           learned, new priorities are realized, and new homeland security guidance is

www.oig.dhs.gov                                3                                       OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           issued. According to the Guidance, updated State and Urban Area Homeland
           Security strategies will then provide a context for performing the strategic
           exercise of asking “How are we organized?” and “How are we managing our
           homeland security programs?”

           Consequently, the FYs 2008, 2009, and 2010 SHSP grant applications were based
           on an outdated strategy. Requesting funds using an outdated strategy, which
           may not have properly prioritized needs and capabilities, does not assure FEMA
           that the State was using grant funds to address its most critical homeland
           security needs.

           Strategy Goals and Objectives

           The SAA did not include time-limited goals and objectives in the State strategy.
           The strategy contained 11 goals with 92 objectives linked to National Priorities,
           and listed 220 steps to achieve the objectives. The State identified 28 milestones
           to reach the 92 objectives; however, 22 (79 percent) of those milestones listed
           completion dates prior to the date FEMA approved the strategy. The remaining
           six milestones (21 percent) were open-ended and did not specify anticipated
           completion dates for the objectives.

           According to the Guidance, an objective sets a tangible and measurable target
           level of performance over time against which actual achievement can be
           compared, including a goal expressed as a quantitative standard, value, or rate.
           The Guidance also states that an objective should be “time-limited” and contain
           a target date to identify when the objective will be achieved.

           Officials in the SAA office said that FEMA approved the FY 2008 strategy for
           FYs 2008–2010 with the current goals, objectives, and milestones, and therefore,
           the SAA office had not focused on changing them. However, they acknowledged
           that goals and objectives were important and indicated that they would wait for
           guidance from FEMA to assist in developing revised goals and objectives.

           Risk Assessment

           The Mississippi State homeland security strategy referenced a 2003 risk
           assessment along with a 2006 program and capability review. However, the
           State could not provide the 2003 risk assessment or the 2006 program and
           capability review. According to the State, the risk assessment data was the
           backdrop for comparative analysis against data assimilated in the FY 2006
           planning process.

www.oig.dhs.gov                                4                                         OIG-13-72

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Without evidence of reliable data, such as a risk assessment, FEMA cannot be
           assured that it approved grants based on a State strategy that contained goals
           and objectives developed using verifiable, reliable data.

           Measurements Toward Preparedness

           The State did not have a system to measure improvement toward preparedness.
           FEMA requires States to submit an annual State Preparedness Report during the
           grant application and evaluation process. State officials prepared annual State
           Preparedness Reports for 2008 and 2009. According to State officials, they were
           not required to submit one for 2010. They added that over the last 4 years,
           FEMA has constantly changed the report and the performance measures it
           requests. In addition, State officials told us that although they prepared the
           report, they could not use it to measure preparedness because the reports do
           not track measurements toward preparedness from one year to the next.
           Neither FEMA nor the State has an adequate performance measurement system
           to evaluate operational effectiveness and grant funds administration. The State
           of Mississippi could not demonstrate quantifiable preparedness improvements
           and accomplishments because it did not set measurable target performance
           levels that could be compared to actual achievement. Without goals and
           objectives against which it can measure progress, the State cannot evaluate the
           effect of grant expenditures on its preparedness and response capabilities.

           The FY 2008 Mississippi homeland security strategy included a plan to evaluate
           progress on stated objectives via quarterly meetings with stakeholders and
           annual meetings to—

                  •	 Review the State’s success in achieving the previous year’s performance;
                  •	 Evaluate plans for the upcoming year relative to the performance 

                     achieved the previous year; 

                  •	 Discuss why specific goals were not met and what corrective actions are
                     required; and
                  •	 Report on financial operations and status.

           However, according to SAA officials, the State did not conduct an annual
           evaluation of the strategy for the grant period under review. Without an annual
           evaluation, it is difficult for the State to measure and report on improvements in
           preparedness and response and for FEMA to make informed funding decisions.




www.oig.dhs.gov                                   5	                                     OIG-13-72

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate
           (GPD):

           Recommendation #1:

           Prepare a revised strategy using a risk-based process with current goals and
           objectives that are time-limited.

           Recommendation #2:

           Submit a revised strategy for FEMA’s approval, and use that strategy to prepare
           future grant applications.

           Recommendation #3:

           Develop a comprehensive performance measurement system for its homeland
           security strategies’ goals and objectives that includes target levels of performance
           and the means to measure progress toward enhancing preparedness.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendations 1 and 2: FEMA and the
           State concurred with these recommendations. The Assistant Administrator of
           the GPD shall require MOHS to update its homeland security strategy, include
           time-limited goals in the strategy, and submit the revised strategy to GPD within
           6 months after issuance of this OIG final report. FEMA requested that these
           recommendations remain resolved and open pending completion, submission,
           and review of the strategy revisions.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendations 1 and 2. These recommendations will remain resolved and
           open until GPD reviews the revised strategy and provides a copy of the State’s
           updated homeland security strategy to the OIG.

           FEMA and the State’s Response to Recommendation 3: FEMA and the State
           concurred with this recommendation. FEMA provided a copy of the State’s
           Threat and Hazard Identification and Risk Assessment (THIRA) letter to the DHS
           NationalfDisasterfPreparednessfAct officials confirming that the State had
           completed its 2012 THIRA. FEMA also provided a copy of the redesigned State

www.oig.dhs.gov                                 6                                         OIG-13-72

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Preparedness Report (SPR) that will help demonstrate and track preparedness
           improvements over time.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 3. This recommendation is resolved and closed.

           Grant Fund Allocation Process

           The SAA could not provide evidence that it follows a collaborative risk-based
           approach during its grant allocation process. The SAA indicated that it depends
           on its own staff and the leaders of the three Mississippi Homeland Security Task
           Forces to prioritize needs and inform grant award decisions, and that efforts to
           include multiple stakeholders in the assessment, strategic planning, and
           allocation/award process were unsuccessful because too many stakeholders
           were involved. Therefore, the State’s grant allocation and award process does
           not involve a broad spectrum of stakeholders engaged in collaborative decision
           making to address the State’s most critical and urgent homeland security needs.
           Additionally, we spoke to some previous grant applicants who did not receive
           funding (nonawardees), who indicated that they were not involved in the
           allocation process and did not participate in developing the State strategy.

           The Guidance required the States to develop regional approaches for leveraging
           all available funding sources (Federal, State, local, and private) to build their
           capabilities. A collaborative risk-based approach involving broad stakeholder
           representation at all levels is critical to ensuring that the State identifies its most
           critical preparedness needs in line with its State homeland security strategy.

           Without the involvement of stakeholders throughout the State, Mississippi runs
           the risk of not accurately identifying gaps in capabilities, and funding programs
           that may not support appropriate goals and priorities for State and nationwide
           preparedness. In addition, applicants throughout the State are better served by
           an inclusive process that considers needs identified at the local level.

           Recommendation

           We recommend that the Assistant Administrator, GPD:

           Recommendation #4:

           Require the Mississippi Office of Homeland Security to identify and ensure all
           stakeholders are included in the grant allocation process.

www.oig.dhs.gov                                   7                                          OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 4: FEMA and the State
           concurred with this recommendation. The GPD Assistant Administrator shall
           require, within 90 days of the issuance of this OIG final report, the State to
           establish a statewide governing body to coordinate grant resources and identify
           all members as required by the Funding Opportunity Announcement (FOA).

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 4. This recommendation is resolved and open until FEMA
           provides evidence that the State established the statewide governing body and
           identified its members.

           Monitoring Subgrantee Activities and Use of Purchased Equipment

           The State did not conduct onsite monitoring of subgrantees’ compliance during
           FYs 2008 through 2010. The SAA indicated that it has a monitoring process that
           includes a monitoring document to collect information, but did not have
           adequate staff to conduct onsite monitoring visits and to evaluate subgrantee
           use, safeguards, and controls over equipment. We reviewed the State’s five-step
           process and the monitoring document. We assessed whether the monitoring
           process was designed to evaluate reimbursements and expenditures; test for
           adequate procurement practices and property management compliance; and
           review administrative, programmatic, and fiscal requirements.

           Code of Federal Regulations (CFR) Title 44 §13.40, MonitoringfandfReportingf
           ProgramfPerformance, establishes requirements for monitoring grant program
           performance. Grantees are responsible for managing the day-to-day operations
           of grant- and subgrant-supported activities. Grantees must monitor grant- and
           subgrant-supported activities to ensure compliance with applicable Federal
           requirements and achievement of performance goals. Grantee monitoring must
           cover each program, function, or activity. Furthermore, according to Office of
           Management and Budget Circular A-133, Compliance Supplement, Part 3-M,
           grantees are responsible for monitoring subgrantees’ use of Federal awards
           through reporting, site visits, regular contact, and other means.

           Effective monitoring, including onsite monitoring, should provide reasonable
           assurance that the subgrantee administers Federal awards in compliance with
           laws and regulations as well as provisions of contracts or grant agreements.
           Through onsite monitoring, we detected deficiencies in sole-source procurements
           and identified equipment that was being used for unauthorized purposes.

www.oig.dhs.gov                               8                                       OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator, GPD:

           Recommendation #5:

           Require the Mississippi Office of Homeland Security to implement the current
           monitoring process to ensure that subgrantees comply with applicable Federal
           requirements.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 5: FEMA and the State
           concurred with this recommendation. The Assistant Administrator of GPD shall
           require MOHS to revise and update the site visit protocol to include a review for
           compliance with Federal requirements, submit a sample monitoring schedule for
           the next 12 months, and report that it completed these actions within 90 days of
           the issuance of this OIG final report.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 5. This recommendation is resolved and open until GPD
           provides evidence that MOHS completed these actions within 90 days of the
           issuance of this OIG final report.

           Sole-source Procurements

           We identified noncompliance with sole-source procurement requirements. For
           example, the Mississippi Board of Animal Health spent $311,775 for a State food
           and agriculture vulnerability assessment without conducting a cost analysis
           before it entered into the agreement. The Board of Animal Health paid $18,153
           for sole-source technical support services without prior State approval or a
           contractual agreement.

           CFR Title 44 §13.36(c)(1) requires that all procurement transactions be
           conducted in a manner providing full and open competition. When competition
           is not used, CFR Title 44 §13.36(f)(1) requires that a cost analysis be conducted
           when adequate price competition is lacking and for sole-source procurements.
           Additionally, the State’s procurement manual requires agency heads to
           determine whether the price for services represents a fair market value when
           procurements are made.


www.oig.dhs.gov                                9                                        OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           According to Board of Animal Health officials, the agreement for the vulnerability
           assessment was awarded without competition because the awardee, a State
           agency, was the only source capable of conducting the study. In addition, the
           costs incurred for technical services were paid to an unjustified sole source
           because the service provider developed the program that required service, and
           according to Board of Animal Health officials, was the only source capable of
           providing technical support. Furthermore, the State did not produce a
           contractual agreement to justify payments to this service provider.

           The Mississippi Board of Animal Health should not have awarded the
           vulnerability assessment agreement without competition or an adequate
           justification for sole-source procurement, and a cost analysis. As a result, the
           SAA did not have assurance that the cost paid was justified or whether the
           contract could have been awarded to an equally competent contractor at a
           lesser cost. Without determining fair market value for sole-source technical
           services and without a cost comparison for services or competition among other
           possible vendors, the State cannot be assured that the costs paid were fair and
           reasonable. Accordingly, we consider the $329,928 awarded to be a questioned
           cost.

           Recommendations

           We recommend that the Assistant Administrator, GPD:

           Recommendation #6:

           Require the Mississippi Office of Homeland Security to ensure that cost analyses
           are performed in accordance with Federal procurement regulations, and conduct
           fair market analysis as directed by the State for sole-source procurements.

           Recommendation #7:

           Require the Mississippi Office of Homeland Security to review the amounts paid
           for unjustified sole-source procurements and recover any unallowable costs of
           the $329,928 in State Homeland Security Program grant funds.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 6: FEMA and the State
           concurred with this recommendation but indicated that FEMA agreed with the
           applicability of 44 CFR 13.36(a) to this finding rather than 44 CFR 13.36(c) as

www.oig.dhs.gov                                10                                       OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           referred to in the OIG draft report. Furthermore, FEMA concurred that it was
           not clear whether the procurements in question complied with 44 CFR 13.36(a).
           The GPD Assistant Administrator shall require MOHS to develop a procurement
           policy to comply with applicable Federal and State regulations and implement a
           plan that includes training for subgrantees, within 90 days of the receipt of this
           OIG final report. The policy will adhere to the requirements of 44 CFR 13.36(a)
           and State government procurement policies and procedures.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 6. This recommendation is resolved and open pending receipt
           of the procurement policy and implementation plan within 90 days of the receipt
           of this OIG final report.

           FEMA and the State’s Response to Recommendation 7: FEMA and the State
           concurred with this recommendation. FEMA indicated it was not clear whether
           the sole-source procurements identified in the OIG draft report were justified
           under 44 CFR 13.36(a). The GPD Assistant Administrator shall require MOHS to
           review the amounts paid for these sole-source procurements and submit
           documentation that supports the questioned procurements within 90 days of
           the receipt of this OIG final report. The Assistant Administrator shall require
           MOHS to pay back $329,928 if the MOHS review validates the sole-source
           procurements were not justified.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 7. This recommendation is resolved and open pending the
           results of MOHS’ review of documentation to support the sole-source
           procurements within 90 days of the receipt of this OIG final report.

           Property Management Controls and Accountability

           The State did not enforce property management requirements for inventory
           controls and ensure that subgrantees safeguarded equipment against loss or
           damage. CFR Title 44 §13.32(d)frequires property records to be maintained and
           to include the property’s description, identification number, source, title holder,
           acquisition date, cost and percentage of Federal funds used in the cost, location,
           use and condition, and ultimate disposition.

           According to the SAA, it delegated responsibility for maintaining equipment
           inventories to subgrantees; however, subgrantee inventory systems were
           incomplete or inaccurate. During site visits, we determined that all 11
           subgrantees maintained equipment inventories, and the Department of Public

www.oig.dhs.gov                                11                                        OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Safety or the city/county maintained some of the subgrantee inventories.
           However, none of the 11 subgrantee inventory systems identified the
           percentage of Federal funds used to procure the equipment or included DHS
           markings on equipment, as required by the Guidance.

           According to FEMA’s 2009 Grant Guidance, Part VI, Section B, 5.10, “Equipment
           Marking,” when practicable, any equipment purchased with grant funding shall
           be prominently marked “Purchased with funds provided by the U.S. Department
           of Homeland Security.” Furthermore, according to 2010 Guidance, Part VI,
           Section B, 5.11, awardees may consider marking equipment in order to facilitate
           their own audit processes, as well as Federal audits and monitoring visits.

           In addition to items not being marked with “Purchased with funds provided by
           the U.S. Department of Homeland Security,” some items were not tagged with a
           unique identification number. As a result, we could not determine whether
           some of the items were listed on the inventory sheet. For one subgrantee, none
           of the items inventoried had property tag numbers.

           For one subgrantee, serial/parcel numbers did not appear on the inventory sheet
           for four of the six items inventoried. For another subgrantee, the serial numbers
           on the spreadsheet did not match those on the equipment or were associated
           with the wrong item description.

           Some pilferable items were unsecured and not properly monitored. For
           example, one subgrantee ordered and distributed Web cameras to some of its
           staff. The subgrantee expected staff to sign out any new cameras; however,
           subgrantee officials admitted that staff did not always follow this procedure.

           Moreover, grantees and subgrantees must adequately safeguard property
           procured with Federal funds to ensure that it is used solely for authorized
           purposes. One subgrantee used equipment for purposes other than those
           identified in the grant’s cooperative agreement. The subgrantee indicated that
           the intended purpose of the grant was for the purchase of equipment and
           training to respond to threats, including chemical, biological, radiological,
           nuclear, and explosives incidents. Authorized uses of the equipment included
           training and exercises. However, the subgrantee damaged a $100,000 boat
           while conducting a non-homeland security-related mission, and the boat
           capsized and sank. At the time of our visit, the boat had been out of service for
           more than 3 months.



www.oig.dhs.gov                                12                                       OIG-13-72

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Figure 2 displays images of the boat (1) after it was first purchased, (2) while it
           was capsized, and (3) during recovery.

           Figure 2. Images of Boat After It Was First Purchased, While Capsized, and
           During Recovery




           Source:ffPearl River Water Supply District.
                       f
           Without subgrantee inventory systems and controls, the State cannot ensure
           that subgrantees are complying with requirements to protect equipment against
           loss or damage or to prevent unauthorized use.
                       f
           Recommendations

           We recommend that the Assistant Administrator, GPD:

           Recommendation #8:

           Assist the Mississippi Office of Homeland Security to ensure that subgrantees
           maintain property and inventory records to support the retention and transfer of


www.oig.dhs.gov                                          13                                 OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           equipment to subrecipients, and ensure accountability of sensitive or pilferable
           equipment.

           Recommendation #9:

           Assist the Mississippi Office of Homeland Security to implement procedures to
           identify equipment purchased with Homeland Security Grant Program funds.

           Recommendation #10:

           Assist the Mississippi Office of Homeland Security to ensure that subgrantees
           use equipment purchased with grant funds only as intended.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendations 8 and 9: FEMA and the
           State concurred with these recommendations. The GPD Assistant Administrator
           shall require, within 90 days of the issuance of this final OIG report, MOHS to
           submit written policies and procedures to address requirements to maintain
           property and inventory records and identify equipment purchased with HSGP
           funds in compliance with 44 CFR 13.32(d) and internal guidelines. MOHS will
           also submit documentation on how it will correct the deficiencies with property
           records and communicate requirements to subgrantees more effectively.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendations 8 and 9. These recommendations are resolved and open
           pending receipt of MOHS’ written policies and procedures and its corrective
           action plan and documentation.

           FEMA and the State’s Response to Recommendation 10: FEMA and the State
           concurred with this recommendation. The GPD Assistant Administrator shall
           require MOHS and subgrantees to comply with 44 CFR 13.32(c) regarding the use
           of equipment purchased with grant funds. Additionally, the GPD Administrator
           shall require, within 90 days of the receipt of this final OIG report, MOHS to
           submit a sample monitoring schedule covering the next 12 months and an
           updated monitoring policy that includes a process for documenting and resolving
           any issues with the misuse of equipment.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 10. This recommendation is resolved and open pending
           receipt of MOHS’ sample monitoring plan covering the next 12 months, an

www.oig.dhs.gov                                14                                        OIG-13-72

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           updated monitoring policy including a process for equipment misuse, and
           evidence of any additional steps FEMA takes to ensure compliance with
           requirements for use of equipment purchased with grant funds.

           Personnel Time Charges

           The SAA improperly accounts for funds used for salary and wage expenditures,
           which are allowable management and administration (M&A) expenses. MOHS
           employees support several DHS grants, but do not have a system to identify time
           devoted to each grant.

           CFR Title 2, Part 225, Appendix B, paragraph 8.h.(4), requires grantees to
           maintain appropriate documentation for employees working on multiple
           activities. Specifically, “Where employees work on multiple activities or cost
           objectives, a distribution of their salaries or wages will be supported by
           personnel activity reports or equivalent documentation which meets the
           standards in subsection 8.h.(5) of this appendix unless a statistical sampling
           system (see subsection 8.h.(6) of this appendix) or other substitute system has
           been approved by the cognizant Federal agency. Such documentary support will
           be required where employees work on: (a) More than one Federal award ….”

           An independent audit firm conducting work for the Mississippi State Auditor
           identified this issue previously.1 This audit resulted in questioned costs of
           $845,380, representing payments for the total dollar amount of general and
           administrative salaries for MOHS personnel during the State’s fiscal year ending
           June 30, 2011. MOHS does not have a system that identifies employee time
           devoted to each specific grant. In response, MOHS officials said that MOHS
           would work on a corrective action. However, MOHS had not implemented a
           corrective action at the time we completed our fieldwork.

           During our review of MOHS payroll transactions reimbursed in July 2011, we
           identified the same condition regarding improper personnel time charges for
           multiple grants that were unsupported by personnel activity reports or
           equivalent documentation that meets the standards in 2 CFR 225. Specifically,
           we confirmed that in FY 2009, MOHS employees who performed work in support
           of various grant funds, including SHSP, were paid from a single source—the
           Interoperable Communications grant funds. According to the reimbursement

   1
    State of Mississippi Single Audit Report for the Fiscal Year Ended June 30, 2011, Schedule of Findings and
   Questioned Costs, Part 3: Federal Award Findings and Questioned Costs, U.S. Department of Homeland
   Security, http://www.osa.state.ms.us/documents/single-audit/11sar.pdf, pp. 87-88/136.

www.oig.dhs.gov                                        15                                               OIG-13-72
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           documents in the award files, salaries, undisclosed personnel services contracts,
           and other fees accounted for $661,753 of the $797,000 FY 2008 SHSP grant to
           MOHS. However, the SAA did not maintain timesheets in the files or provide
           timesheets to support the salary payments or other personnel-related expenses.
           The FY 2009 grant file contained no reimbursement documents related to
           personnel time charges.

           The SAA has not developed an accounting methodology that properly accounts
           for charges to M&A. Without a system to allocate time worked on different
           projects, the SAA cannot validate that MOHS personnel charged time to the
           appropriate grant and properly used SHSP grant funds for M&A expenses. As a
           result, we question salaries and other personnel-related costs of $661,753
           reimbursed against the FY 2008 SHSP grant.

           Recommendations

           We recommend that the Assistant Administrator, GPD:

           Recommendation #11:

           Assist the Department of Public Safety and Mississippi Office of Homeland
           Security to develop and implement a time-tracking and payroll-distribution
           process that will allow employees to track their time by Federal award so salary
           and wage distribution can be made to the appropriate grants and cost
           objectives.

           Recommendation #12:

           Assist the Department of Public Safety and Mississippi Office of Homeland
           Security to provide documentation that supports the questioned personnel time
           charges of $661,753 for FY 2008 and recover the amount not supported.

           Management Comments and OIG Analysis

           FEMA and the State’s Response to Recommendation 11: FEMA and the State
           concurred with this recommendation. The GPD Assistant Administrator shall
           require, within 90 days of receipt of this OIG final report, MOHS to develop and
           implement a time-tracking and payroll-distribution policy that appropriately
           accounts for funds used for salary and wage expenditures.



www.oig.dhs.gov                                16                                       OIG-13-72

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 11. This recommendation is resolved and open pending
           receipt of MOHS’ policy for time tracking and payroll distribution.

           FEMA and the State’s Response to Recommendation 12: FEMA and the State
           concurred with this recommendation. The GPD Assistant Administrator shall
           require, within 90 days of the receipt of OIG final report, MOHS to submit to
           FEMA documentation that supports the $661,753 in questioned personnel time
           charges for FY 2008. If the documentation does not support the charges, the
           Assistant Administrator shall require MOHS to pay back the unallowable
           personnel time charges.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           recommendation 12. This recommendation is resolved and open pending
           receipt of documentation to support the $661,753 in questioned personnel time
           charges within 90 days of receipt of this OIG final report.




www.oig.dhs.gov                              17                                     OIG-13-72

                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the DHS OIG to audit individual States’ management of SHSP and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   the State of Mississippi.

   The objective of the audit was to determine whether the State of Mississippi distributed
   and spent SHSP grant funds (1) effectively and efficiently and (2) in compliance with
   applicable Federal laws and regulations and DHS guidelines. We also addressed the
   extent to which grant funds enhanced the State’s ability to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other man-made
   disasters.

   The scope of this audit included the plans developed by the State to improve
   preparedness and response to all types of hazards, goals, and objectives set in those
   plans; measurement of progress toward the goals; and assessments of performance
   improvement resulting from this measurement.

   Together, HSGP and its interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, we reviewed only SHSP funding,
   equipment, and supported programs for compliance. Table 1 shows the scope of the
   audit, which included SHSP grant awards for FYs 2008, 2009, and 2010.

   Table 1. State of Mississippi’s SHSP Awards (FYs 2008 through 2010)
                  Grant Program             FY 2008      FY 2009      FY 2010        Total
    State Homeland Security Program Grant   $6,180,000   $6,524,500   $6,613,200   $19,317,700
   Source: FEMA.

   The audit methodology included work at FEMA headquarters, State of Mississippi
   offices, and various subgrantee locations in the northern, central, and southern regions
   of the State that received grants. We also selected grant nonawardees for survey. To

www.oig.dhs.gov                                 18                                       OIG-13-72
                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   achieve our audit objective, we analyzed data, reviewed documentation, and
   interviewed nonawardees and key State and local officials directly involved in the
   management and administration of the State’s HSGP. In addition, to ensure the
   accuracy of grant obligation and expenditure data reported in the State’s Biannual
   Strategy Implementation Reports for FYs 2008, 2009, and 2010, we verified the
   information by comparing report data against source documents in grant award files
   maintained by the SAA.

   Table 2 shows the sampled grant award files from State agencies, designated task
   forces, and local government subgrantees that received SHSP grants awarded in
   FYs 2008, 2009, or 2010.

   Table 2. Subgrantee Sample Selection (FYs 2008 through 2010)
                                                Grant
                  Subgrantees                                               Grant Description
                                               Amount
                                                           Bomb squad, City of Tupelo/Lee County Task
    City of Tupelo                             $144,750    Force funds
    City of McComb and Pike County
    Regional Response Team                      744,500    Mississippi Task Force Logistics Support
    Harrison County Sheriff’s Office             30,000    Law Enforcement Terrorism Prevention Program
                                                           Mississippi vulnerability and risk assessment as it
                                                           relates to Mississippi agricultural and food
    Mississippi Board of Animal Health          550,000    sectors
    Mississippi State Fire Academy              225,000    Mississippi State Fire Academy
    Mississippi Fusion Center                   900,000    Mississippi Fusion Center
    Mississippi Office of Homeland
    Security                                  2,102,600    DHS grants management and administration
    Task Force 1 – Desoto, Greenwood,                      Desoto County Task Force funds, Desoto County
    Tupelo                                    1,163,931    Regional Response funds, Desoto County funds
                                                           City of Columbus/Lowndes County Regional
    Task Force 2 – Columbus, Meridian,                     Response funds, City of Columbus/Lowndes
    Jackson                                     496,183    County Task Force funds, City of Columbus funds
    Task Force 3 – Harrison County,                        Task Force and Regional Response Teams Award
    Hattiesburg, McComb                          94,180    for Mississippi’s Southeast region
                                                           Enhance response capability to water-based
    Pearl River Water Supply District           135,000    critical infrastructure threats
    Total of Subgrantee Awards
    Reviewed                                 $ 6,586,144
   Source: MOHS.

   Figure 3 shows the location, by county, of the 11 subgrantees visited. At each location,
   we interviewed officials responsible for grant award oversight, reviewed documentation
   supporting State and subgrantee management of grant funds, and physically inspected


www.oig.dhs.gov                                      19                                                 OIG-13-72
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   selected equipment procured with grant funds. We surveyed eight grant nonawardees
   as well.
                Figure 3. Locations, by County, of the 11 Subgrantees Visitedf




   Source:ffOIGf

www.oig.dhs.gov                            20                                   OIG-13-72
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   We conducted this performance audit between March and September 2012 pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.
   f




www.oig.dhs.gov                              21                                     OIG-13-72

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                        U.S. IIqmrtm.,,, I or I l o m., I~1H1 S""lIril)'
                                                                                        Wnshingto". DC 20472




                                                                        ~.,0;
                                                                              ; FEMA
                                                                          <.i" o




            MEMORANDUM FOR ,              A nne L. Ri chards
                                          Assistant Inspecto r General for A udit s
                                          Office or Inspec tor General

            FROM:                         David J. Kaurman               ~~(. t
                                          Associate Adm ini strmor ror       , b--')
                                          Policy. Program An alysis and Intcmatio na l Affairs

            SUBJECT ,                     FEMA Response to 0 10 Draft Report, "The Slltte of Missi~'si{Jpi 's
                                          k lwwgemenr afStale !-Iomeland Secllrity Program GralllS
                                          Awarded dl/ring Fiscal rears 2008 Throllgh 2010 - For O.Dicial
                                          Use Dilly· DIG Projecl No. 12-IIO-A UD-FEII4A ".


            Thank you ror the opportunity to comment 0 11 O IG Draft Report. "71te Slale ofl\;lississippi's
            J\4ll11agemellt ofSlllre Ho meland Security Program Grlmls Awarded during Fiscal )'eal"s 2008
            Through 2010 - For 0Bif.:il" Use Only - O IG Projeer No. 12·IIO·AUD-FEMA". The findin gs in
            the report will be used to enhance the program ' s overall effectivcness. Thc rollowing arc our
            responses 10 the recommendat io ns l'Or implementation:

            O IG Rccornmclldlllion I : \Vc recommcnd thc Assistant Admini strator, Grant Programs
            Dircetorate (G PO) require the Mississippi Otlice o f Homeland Security (MO l-IS) revise its State
            Ho meland Securi ty S trategy using a ri sk-based process with current goals and objec tivcs Ihm are
            timc- limitcd.

            FEMA Res po nsc : Concu r . (See consofit/llted n!~po"sefor recommendation I & 2 below)

            OIG Reco mm endation 2: We recommend the Assisinnt Administrator, G PO rcquirc MO HS
            submi t the rcvised strategy for FEMA's approval and usc that strntcgy to preparc ruture g rant
            appi icaa ions.

            FEMA Response to Recomlll end:lIio ns I & 2: Concur. FEMA has nevcr required grantces 10
            dcvclop or rcvisc Statc Ho meland Security Stratcgics lIsing a risk-based proccss. Howcver. thc
            Assistant Administrator or thc G PD sha ll requirc the SW le of Mississippi Office o r Homeland
            Sccurity (MO HS) to updatc its Homeland Sccurity Stratcgy. e nsuring the stratcgy includcs
            measurable targct leve ls of pcrformuncc_ as well as objectivcs that arc s pecific. mcnsurablc.
            achicvablc. rcsults-oriented. and time-limitcd. and a n appropriate evaluation. The State of
            Mississippi shall submit the rcviscd Homeland Sec urity S trategy to GPO fo r review w ithin six
            months alicr issunnce or the O IG final rcport.

            FEM A requcsts thi s recommcndation bc resolved and open pending the co mp lc tio n. submiss io n.
            and review of thc stratcgy rev isions.
                                                                                       ,,"'WW.r.,ma.aov




www.oig.dhs.gov                                               22                                                                           OIG-13-72

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 3: We recommend the Assistant Administrator, GPD require MOHS
              develop a comprehensive measurement system for its Homeland Security Strategies' goals and
              objectives that include target levels of performance and the means to measure progress toward
              enhancing preparedness.

              FEMA Response: Concur. The FEMA National Preparedness Directorate (NPD) developed
              processes to measure core capabilities in accordance with the National Preparedness Goal
              pursuant to PPD-S. The State completed the Threat and Hazard Identification and Risk
              Assessment (THIRA) and submitted it to FEMA by December 31, 2012. The THIRA will be
              used to create a baseline and targets for Fiscal Year 2013 and beyond. FEMA has also
              redesigned the State Preparedness Report (SPR) that will help states demonstrate and track
              preparedness improvement over time. Given the State' s compliance with these requirements, we
              believe that their actions satisfied the intent of the recommendation. See attachment "An
              Mississippi letter confirming completion and submission ofTHIRA and attachment "B"
              Mississippi SPR.

              FEMA requests that the recommendation be resolved and closed.

              OIG Recommendation 4: We recommend the Assistant Administrator GPD require MOHS
              identify and ensure all stakeholders are included in the grant allocation process.

              FEMA Response: Concur. The Assistant Administrator ofGDP shall require the State of
              Mississippi to establish a statewide governing body such as a senior advisory committee as
              outlined in the Homeland Security Grant Program Funding Opportunity Announcement (FOA),
              to coordinate grant resources and identify all members as required by the FOA within 90 days of
              receipt of this report.

                  FEMA requests that the recommendation be resolved and open pending completion of the stated
                  corrective action.

                  OIG Recommendation 5: We recommend the Assistant Administrator, GPD require MOHS to
                  implement the current monitoring process to ensure that subgrantees comply with applicable
                  Federal requirements.

                  FEMA Response: Concur. The Assistant Administrator of GPD shall require MOHS to revise
                  and update the site visit protocol to include a review of subgrantee compliance with Federal
                  requirements. MOHS should also submit a sample monitoring schedule to encompass the next
                  12 months. MOHS shall report to GPD once it has revised and updated the site visit protocol no
                  later than 90 days after the issuance of the OIG final report.

                  FEMA requests this recommendation be resolved and open pending the completion of the
                  corrective action.

                  OIG Recommendation 6: We recommend the Assistant Administrator, GPD require MOHS to
                  ensure that cost analyses are perfonned in accordance with Federal procurement regulations, and
                  conduct fair market analysis as directed by the State for sole-source procurements.




www.oig.dhs.gov                                            23                                                   OIG-13-72

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              FEMA Response: Concur. The findings in the draft report indicate that the Mississippi Board
              of Animal Health. a state agency. entered into two sole source contracts in contradiction of 44
              CFR § 13.36(c). FEMA notes however that, as a state agency, the Mississippi Board of Animal
              Health is not subject to § 13.36(c), but rather is subject to the requirements of 44 CFR § 13.36(a).
              44 CFR § 13.36(a) requires that States that make procurements with federal funds "follow the
              same policies and procedures it uses for procurements from its non-Federal funds," and further
              provides that paragraphs (b)-{i) of § 13.36 shall apply to non·state grantees and subgrantees,
              Consequently, FEMA's view is that 44 CFR § 13,36(a) is more appropriately applicable to
              procurements made by the Mississippi Board of Animal Health, rather than 44 CFR § 13,36(c),

              Nevertheless, FEMA concurs that it is not clear whether the procurements in question complied
              with 44 CFR § 13.36(a), Therefore, the Assistant Administrator of GPD shall require MOHS to
              develop and implement a procurement policy to comply with applicable Federal, and State,
              regulations within 90 days of receipt of this report. The policy will adhere to procedures set
              forth in the applicable provisions of 44 CFR § 13.36 as well as State govemment policies and
              procedures, The implementation plan for this policy must involve training for subgrantees,

              FEMA requests this recommendation be resolved and open pending implementation of the stated
              corrective actions.

              OIG Recommendation 7: We recommend the Assistant Administrator, GPD require MOHS to
              review the amounts paid for unjustified sale source procurements, and recover any unallowable
              costs of the $329,928 in State Homeland Security Program (SHSP) grant funds,

              FEMA Response: Concur. Based on the findings in the draft report, it is not clear whether the
              sole source procurements at issue were justified under 44 CFR § 13.36(a). The Assistant
              Administrator of GPD shall require MOHS to review the amounts paid for these sale source
              procurements and submit documentation that supports the questioned procurements within 90
              days of receipt of this report. If the finding is validated, the Assistant Administrator shall require
              that MOHS pay back $329,928 in unjustified sole source procurements,

              FEMA requests this recommendation be resolved and open pending implementation of the stated
              corrective actions.

              OIG Recommendation 8: We recommend the Assistant Administrator, GPD require MOHS to
              ensure that subgrantees maintain property and inventory records to support the retention and
              transfer of equipment to subrecipients and ensure accountability of sensitive or pilferable
              equipment.

              FEMA Response: Concur. (See consolidated response for recommendation 8 & 9 below)

              OIG Recommendation 9: We recommend the Assistant Administrator, GPD require MOHS to
              implement procedures to identify equipment purchased with Homeland Security Grant Program
              funds,




www.oig.dhs.gov                                            24                                                          OIG-13-72

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              FEMA Response to Recommendations 8 & 9: Concur. Within 90 days of issuance of the
              final report, the Assistant Administrator of GPD shall require MOHS to submit written policies
              and procedures addressing the requirement provisions of 44 CFR 13.32(d) as well as any internal
              guidelines along with documentation detailing how MOHS will correct the deficiencies outlined
              in the final audit report and communicate requirements with subgrantees more effectively.

              FEMA requests this recommendation be considered resolved and open pending the corrective
              actions stated above.

              OIG Recommendation 10: We recommend the Assistant Administrator, GPD require MOHS
              to ensure that subgrantees use equipment purchased with grant funds only as intended.

              FEMA Response: Concur. The Assistant Administrator of GPD shall require that MOHS and
              subgrantees use equipment purchased with grant funds as required by 44 eFR § 13.32(c). The
              Assistant Administrator of GPD shall require MOHS to submit a sample monitoring schedule to
              encompass the next 12 months and an updated monitoring policy to include a process for
              documenting and resolving any issues with the misuse of equipment within 90 days of receipt of
              this report.

              FEMA requests this recommendation be resolved and open pending implementation of the stated
              corrective actions.

              OIG Recommendation 11: We recommend the Assistant Administrator, GPD require MOHS
              and the Department of Public Safety (DPS) to develop and implement a time tracking and
              payroll distribution process that will allow all employees to track their time by Federal award so
              salary and wage distribution can be made to the appropriate grants and cost objectives.

              FEMA Response: Concur. The Assistant Admini~trator of GPD shall require MOHS to
              develop and implement a time tracking and payroll distribution policy that appropriately
              accounts for funds used for salary and wage expenditures within 90 days of receipt of this report.

              FEMA requests that this recommendation be resolved and open pending implementation of the
              stated corrective action.

              OIG Recommendation 12: We recommend the Assistant Administrator, GPD require MOHS
              and the DPS to provide documentation that supports the questioned personnel time charges of
              $661 ,753 for FY 2008, and recover the amount not supported.

              FEMA Response: Concur. The Assistant Administrator of GPD shall require the MOHS to
              submit documentation that supports the questioned personnel time charges within 90 days of
              receipt of this report. If the finding is validated, then the Assistant Administrator shall require
              that MOHS pay back $661,753 in unallowable personnel time charges to FEMA.

              FEMA requests this recommendation be resolved and open pending implementation of the stated
              corrective actions.




www.oig.dhs.gov                                             25                                                      OIG-13-72

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




              Again, we thank you for the work that you and your team did to inform us of measures we can
              take to enhance the program's overall effectiveness. We look forward to OIG's final report for
              "The State oj Mississippi's Management aJState Homeland Security Program Grants Awarded
              during Fiscal Years 200S Through 2010 - For Official Use Only OIG Project No. 12-110-AUD-
              FEMA ". Please direct any questions regarding this response to Gary McKeon, FEMA's Chief
              Audit Liaison, at 202-646-1308.




www.oig.dhs.gov                                         26                                                     OIG-13-72

                     OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security



   Appendix C
   State of Mississippi Homeland Security Governance

                                  The Governor of
                                    Mississippi



                                 The Department of
                                    Public Safety



                                   The Mississippi
                                 Office of Homeland
                                       Security



                                 Executive Director




                       Office Director           Deputy
                       Fusion Center           Administrator



                                               Office Director
                                                 Operations



                                               Office Director
                                                    Training


                                               Office Director
                                                  Grants
                                                Administrator
   Source: MOHS. 





www.oig.dhs.gov                          27                      OIG-13-72

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Homeland Security Grant Program
   State Homeland Security Program grant supports the implementation of State
   homeland security strategies to address the identified planning, organization,
   equipment, training, and exercise needs to prevent, protect against, respond to, and
   recover from acts of terrorism and other catastrophic events.

   Urban Areas Security Initiative Program funds address the unique planning,
   organization, equipment, training, and exercise needs of high-threat, high-density urban
   areas and assists them in building an enhanced and sustainable capacity to prevent,
   protect against, respond to, and recover from acts of terrorism.

   Metropolitan Medical Response System Program supports the integration of
   emergency management, health, and medical systems into a coordinated response to
   mass casualty incidents caused by any hazard. Successful Metropolitan Medical
   Response System Program grantees reduce the consequences of a mass casualty
   incident during the initial period of a response by augmenting existing local operational
   response systems before an incident occurs.

   Citizen Corps Program brings community and government leaders together to
   coordinate the involvement of community members and organizations in emergency
   preparedness, planning, mitigation, response, and recovery.

   Operation Stonegarden funds are intended to enhance cooperation and coordination
   among local, tribal, territorial, State, and Federal law enforcement agencies in a joint
   mission to secure United States borders along routes of ingress from international
   borders to include travel corridors in States bordering Mexico and Canada, as well as
   States and territories with international water borders. This program was not included
   in the FYs 2008 and 2009 Homeland Security Grant Program.




www.oig.dhs.gov                               28                                        OIG-13-72

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Donald Bumgardner, Director
   Beverly Bush, Audit Manager
   Elaine Ferguson, Auditor-in-Charge
   Armando Lastra, Auditor
   Sue Vernier, Auditor
   Vashti Gordon, Program Analyst
   Kevin Dolloson, Communications Analyst
   Maryann Pereira, Referencer




www.oig.dhs.gov                             29                  OIG-13-72

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  30                        OIG-13-72

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
